VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                    Veterans Benefits 

                                                                     Administration 

                                                                           Audit of 

                                                                     Foreclosed Property 

                                                                    Management Contractor 

                                                                          Oversight 





                                                                                    August 27, 2013
                                                                                     12-01899-238
             ACRONYMS AND ABBREVIATIONS 


LGY          Loan Guaranty Service
OIG          Office of Inspector General
OMB          Office of Management and Budget
PMOU         Property Management Oversight Unit
VBA          Veterans Benefits Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                   Report Highlights: Audit of VBA’s
                   Foreclosed Property Management
                   Contractor Oversight
Why We Did This Audit                           What We Recommended

We conducted this audit to determine if the     We recommended the Under Secretary for
Veterans Benefits Administration (VBA)          Benefits ensure VBA’s contractor provides
Loan Guaranty Service (LGY) approved            vendor invoices to substantiate claimed
payments for allowable expenses submitted       expenses prior to reimbursement by LGY
by VA’s foreclosed property management          and determine whether it is cost effective to
contractor. In addition, the audit determined   initiate recovery of improper payments.
whether LGY ensured properties met safety,      Additionally, we recommended the Under
preservation, and maintenance requirements.     Secretary develop policies that ensure LGY
                                                staff report maintenance exceptions and
What We Found                                   ensure contractor correction.

LGY made payments for 528 of                    Agency Comments
890 individual expense items not supported
by vendor invoices. This occurred because       The Under Secretary concurred with
LGY did not ensure the contractor complied      Recommendations 1 and 3 but did not
with the contractual requirement to provide     concur with Recommendation 2.            We
the documentation necessary to demonstrate      revised Recommendation 2 to recognize that
the appropriateness and legitimacy of           LGY can decide if recouping these improper
expenses claimed for reimbursement. As a        payments from the prior property
result, we found LGY made approximately         management contractor is cost effective.
$64,400 in payments from October
2010 through March 2012 for expense             However, we reiterated that VBA paid some
reimbursements submitted by the contractor      expenses not supported by evidence.
without adequate supporting documentation.      Without adequate documentation to support
                                                expenses claimed, LGY cannot reasonably
In addition, LGY did not timely notify the      ensure the prudent use of taxpayer funds in
contractor     of    property   maintenance     compensating the contractor for expenses
exceptions that posed safety hazards or risk    incurred    for     managing    VA-owned
of immediate deterioration or ensure            foreclosed properties.
correction of these issues. This occurred
because LGY policies did not require LGY
staff to report maintenance exceptions and
ensure correction. Foreclosed properties
with uncorrected maintenance exceptions
may increase VA’s potential liability, take
longer to sell, and reduce the value of these             LINDA A. HALLIDAY
properties.                                            Assistant Inspector General
                                                       for Audits and Evaluations


                                                                                            i
                                                 Table of Contents 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding 1              Property Management Expense Reimbursements Approved, But Lacked 

                           Adequate Documentation ....................................................................................2
 

                           Recommendations ...............................................................................................3
 

    Finding 2              Timely Notification of Property Maintenance Exceptions Not Provided, 

                           Nor Corrections Ensured to be Taken.................................................................7
 

                           Recommendation.................................................................................................9
 

Appendix A                 Background .......................................................................................................10
 

Appendix B                 Scope and Methodology....................................................................................12


Appendix C                 Contractor Performance ....................................................................................14


Appendix D                 Statistical Sampling Methodology ....................................................................15


Appendix E                 Under Secretary for Benefits Comments ..........................................................17


Appendix F                 Office of Inspector General Contact and Staff Acknowledgments...................23


Appendix G                 Report Distribution ...........................................................................................24





                                                                                                                                                 ii
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight



                    INTRODUCTION
Objective           We conducted this audit to determine if the Veterans Benefits Administration
                    (VBA) Loan Guaranty Service (LGY) approved payments for allowable
                    expenses submitted by VA’s foreclosed property management contractor. In
                    addition, the audit determined whether LGY ensured properties met safety,
                    preservation, and maintenance requirements. We conducted this audit, in
                    part, as a response to allegations made through the VA Office of Inspector
                    General (OIG) Hotline in March 2012. The complainant alleged that the
                    Property Management Oversight Unit (PMOU) was directed to reimburse the
                    contractor without original invoices.

VA Home Loan        The VA Home Loan Program assists eligible veterans, active duty personnel,
Program             and other qualified individuals to finance home purchases, construction,
                    improvement, or refinancing with favorable terms. In October 2012, VA
                    reported they had approved 20 million home loans since VA established the
                    program in 1944 and had 1.7 million active VA guaranteed loans with a total
                    value of approximately $284 billion. VA guaranteed approximately
                    540,000 loans in FY 2012, which includes refinanced loans.

Property            LGY provides oversight and monitors the performance of the property
Foreclosure         management contractor through the Property Management Central Office in
Management          Washington, DC, and PMOU in Nashville, TN. The loan servicer, such as a
                    bank, may initiate foreclosure or termination proceedings when veterans
                    cannot meet their loan obligations. The servicer may acquire the property,
                    and has the option of conveying the property to VA. Once conveyed, VA
                    assigns the property to a contractor for management and sale. According to
                    VBA in FY 2012, VA paid Bank of America approximately $83 million for
                    managing VA-owned foreclosed properties. VA had an inventory of
                    approximately 9,500 foreclosed properties valued at about $953 million at
                    the beginning of FY 2013.

Contractor          The contractor is responsible for securing foreclosed properties, maintaining
Responsibilities    properties in a clean, safe, and sanitary condition, maximizing the properties’
                    sales return, and minimizing the properties’ time on the market. VBA pays
                    the contractor a monthly management fee for each property in the inventory
                    and generally reimburses the contractor for allowable expenses after the sale
                    of the property.

Other               The following appendixes provide additional information.
Information
                       Appendix A provides additional background information.
                       Appendix B provides audit scope and methodology.
                       Appendix C provides contractor performance information.



VA Office of Inspector General                                                                   1
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight



                    RESULTS AND RECOMMENDATIONS
Finding 1 	         Property Management Expense Reimbursements
                    Approved, But Lacked Adequate Documentation

                    LGY made payments for 528 (59 percent) of 890 sampled expenses not
                    supported by vendor invoices. This occurred because LGY did not ensure
                    the contractor complied with the contractual requirement to provide the
                    documentation necessary to demonstrate the appropriateness and legitimacy
                    of expenses claimed for reimbursement. LGY management accepted the
                    contractor’s summaries of expenses rather than vendor invoices to verify
                    work completed on properties and other expenses incurred, such as utility
                    costs. As a result, we found LGY made approximately $64,400 in payments
                    from October 2010 through March 2012 for contractor-submitted expense
                    reimbursements that lacked adequate supporting documentation.

Payments            LGY paid the contractor for expense reimbursements associated with the
Made Without        preservation and maintenance of foreclosed properties that lacked adequate
Adequate
Support
                    supporting documentation. Specifically, LGY made payments for 528 of
                    890 claimed expenses that were unsupported by detailed vendor invoices.
                    Unsupported LGY payments averaged approximately $122 and were as high
                    as $2,450 for a single expense. As shown in Table 1, property maintenance
                    expenses were the most common expense lacking support by vendor
                    invoices, totaling approximately $41,500. Other expenses included utilities
                    and administrative expenses, which include eviction expenses and fees,
                    homeowner’s association/condominium fees, marketing appraisal fees, and
                    title research fees.

Table 1                             Expenses With Insufficient Documentation
                          Expense Type       Number of Expenses        Dollar Amount
                      Property Maintenance            235                   $41,500
                      Utilities                       229                    12,400
                      Administrative                   64                    10,600
                       Total                          528                   $64,400
                      Source: VA OIG analysis of reimbursed expenses lacking adequate support
                      Note: Expenses do not total $64,400 due to rounding.

Criteria            PMOU procedures require staff to review expense claims submitted by the
                    foreclosed property management contractor to ensure the appropriateness of
                    property maintenance, utility, and repair expenditures prior to
                    reimbursement. In addition, VA’s contract with Bank of America required
                    all expenses submitted for reimbursement be substantiated by complete
                    imaged (electronic) documentation, such as bids, work orders, and invoices,
                    in support of allowable expenses. The contractor was required to make this
                    documentation available concurrently with the electronic invoice presented

VA Office of Inspector General                                                                   2
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                    to VA for payment.         Office of Management and Budget (OMB)
                    Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C,
                    Circular A-123 states when an agency is unable to discern whether a
                    payment was proper due to a lack of or insufficient documentation, the
                    payment is considered an improper payment.

Expense             LGY made payments to reimburse contractor expenses and did not ensure
‘Summaries’         the contractor complied with the contractual requirement to provide the
Submitted
                    documentation necessary to demonstrate the appropriateness and legitimacy
                    of claimed expenses. Instead, LGY management accepted summaries of
                    expenses generated from the contractor’s invoice management system in
                    support of just over 500 claimed expenses.

                    Expense summaries submitted by the contractor to LGY did not include a
                    detailed breakdown of charges accounting for the total dollar amount of the
                    line item expense(s) requested for reimbursement. Instead, the summaries
                    included only the total cost for line item expenses, expense type, and dollar
                    amount claimed for reimbursement.           We determined these expense
                    summaries lacked sufficient evidence to verify if the expenses claimed were
                    accurate, allowable, and legitimate.

                    As a result, we found LGY made approximately $64,400 in
                    payments from October 2010 through March 2012 for contractor-submitted
                    expense reimbursements that lacked adequate supporting documentation.

                    LGY needs to ensure its foreclosed property management contractor
                    complies with contract requirements by providing vendor invoices to
                    substantiate claimed expenses prior to reimbursement. Without adequate
                    documentation to support expenses claimed, LGY cannot reasonably ensure
                    the prudent use of taxpayer funds in compensating the contractor for
                    expenses incurred for managing VA-owned foreclosed properties.

                    Recommendations

                    1. We recommended the Under Secretary for Benefits ensure the Veterans
                    Benefits Administration’s foreclosed property management contractor
                    provides vendor invoices to substantiate expenses claimed by the contractor
                    prior to reimbursement by Loan Guaranty Service.

                    2. We recommended the Under Secretary for Benefits determine whether it is
                    cost effective to initiate recovery of improper payments identified in our
                    audit.

Management          The Under Secretary for Benefits concurred with Recommendation 1 and
Comments            requested closure based on the new contractual terms with the current
                    contractor.    Although the Under Secretary concurred with this
                    recommendation, the Under Secretary disagreed with our assertion that the
                    contract payments we reviewed were improper and not supported by

VA Office of Inspector General                                                                   3
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                    sufficient documentation. The Under Secretary for Benefits did not concur
                    with Recommendation 2 and stated the OMB circular referenced does not
                    provide measures to determine whether documentation is sufficient and
                    disagreed with our interpretation of what OMB considers sufficient
                    documentation. In addition, VBA stated the contractor’s processes and
                    internal controls, the validity of the expense summaries, and PMOU’s
                    standard operating procedures and expertise in handling invoices ensured
                    payments made were proper. As a result, VBA believes that payments made
                    were proper and does not concur with determining the cost effectiveness of
                    initiating recovery of these payments.

OIG                 We reiterated that VBA approved and reimbursed some expense, claimed by
Responses           its foreclosed property management contractor, not supported by sufficient
                    documentation.

                    VBA’s assertions and OIG comments follow.

                    	 VBA Position: The OIG reviewed only a particular step in LGY’s
                       process and overlooked other key steps, such as its oversight process of
                       their property management contractor. Additionally, VBA thoroughly
                       reviewed the contractor’s invoice processes, procedures, internal
                       controls, and related systems; thus, VBA had assurance that the
                       contractor’s handling of sub-contractor expenses was proper.

                        OIG Response: We thoroughly reviewed LGY’s oversight processes and
                        procedures with LGY staff and management officials, to include LGY’s
                        verification of the contractor’s invoice management system. VBA was
                        unable to provide documented evidence of an LGY review of the invoice
                        management system, which would support their reliance on the
                        contractor’s automated and manual controls, processes, and procedures.
                        Without such a review of the system, LGY has no assurance that their
                        handling of sub-contractor invoices was sound. In addition, LGY’s
                        review procedures did not comply with contractual requirements and
                        lacked reasonable assurance expenses claimed for reimbursement were
                        appropriate.

                    	 VBA Position: VBA chose to use expense summaries as sufficient
                       supporting documentation for expenses due to the fact the summaries
                       provided multiple details about the expense and work performed.

                        OIG Response: The LGY contractor-provided expense summaries, also
                        referred to by VBA as “proof of payment” screens, did not provide
                        sufficient documentation to substantiate reimbursements. Without
                        detailed vendor invoices supporting contractor claimed expenses, we
                        were not able to, nor can VBA, determine if expenses claimed included
                        non-reimbursable fees and expenses. Further, VBA cannot verify actual
                        dates to ensure expenses were not incurred outside the period for which

VA Office of Inspector General                                                                   4
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                        VA was responsible for the property and determine whether the expense
                        was actually incurred and accurate. We maintain that LGY’s decision to
                        accept summaries lacking necessary detail to substantiate expense
                        reimbursements resulted in a lack of assurance that expenses paid were
                        appropriate.

                    
 VBA Position: Well-trained, closely monitored staff review expenses
                       prior to reimbursement through a thorough, two-step review process.

                        OIG Response: Despite staff training or monitoring, LGY
                        management’s decision to accept the expense summaries/proof of
                        payment screens as sufficient evidence of claimed expenses limited the
                        effectiveness of these reviews for reasons stated above. The contractor
                        did not provide staff performing invoice reviews with sufficient
                        documentation in the majority of sampled invoices to make a
                        determination that a claimed expense was accurate or allowable prior to
                        reimbursement.

                       VBA Position: OIG’s own contracted financial statement auditors had no
                        objections to the appropriateness of supporting documentation provided
                        by the contractor.

                       OIG Response: The purpose of the financial statement audit is to
                        express an opinion on whether VA’s financial statements are free of
                        material misstatements and conform to generally accepted accounting
                        principles in accordance with the Chief Financial Officers Act of 1990.
                        The auditors conduct their testing only to render an opinion on VA’s
                        financial statements taken as a whole, not to provide assurance on the
                        accuracy of the foreclosed property management contractor’s invoices or
                        VBA-related payment controls. Therefore, LGY should not rely on
                        financial statement audit results to assert they have adequate internal
                        controls because this was not a specific objective of the financial
                        statement contractor’s work.    
                        OIG testing during this audit of the specific controls used by LGY
                        provides a better assessment regarding how well LGY performs invoice
                        reviews and assures compliance with the specific control requirements
                        established by VBA. Additionally, it provides an assessment of how
                        well VBA designed the controls and to what extent they were working as
                        intended. Based on this testing, we determined that controls in place did
                        not provide LGY with reasonable assurance of the prudent use of
                        taxpayer funds in compensating the contractor for expenses incurred for
                        managing VA-owned foreclosed properties.

                    
 VBA Position: The referenced OMB circular does not specifically state
                       what type and level of documentation is considered sufficient.



VA Office of Inspector General                                                                   5
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                    	 OIG Response: We disagree. Office of Management and Budget
                       Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix
                       C, Circular A-123 states that when an agency’s review is unable to
                       discern whether a payment was proper because of insufficient or lack of
                       documentation, this payment must be considered an improper payment.
                       For each expense we identified as lacking sufficient documentation,
                       VBA’s LGY staff agreed they were unable to determine whether the
                       expense was appropriate and allowable based upon the information
                       submitted by the contractor. Without vendor invoices substantiating
                       reimbursement claims by the contractor, VBA does not have reasonable
                       assurance that payments made were proper and cannot further
                       substantiate the appropriateness of payments made.
                    In regards to the Under Secretary’s response to Recommendation 1, LGY is
                    now providing the current contractor with a flat fee for property preservation
                    activities. Therefore, we consider this recommendation closed.
                    We disagree with the Under Secretary’s comments for Recommendation 2.
                    The payments we found in error meet the definition of “improper payments”
                    as defined by OMB. However, we have revised this recommendation, to
                    recognize that LGY needs to decide if recouping these improper payments
                    from the previous foreclosed property management contractor is cost
                    effective. See Appendix E for the Under Secretary’s full response.




VA Office of Inspector General                                                                   6
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


Finding 2           Timely Notification of Property Maintenance Exceptions
                    Not Provided, Nor Corrections Ensured to be Taken

                    LGY was not timely about notifying the contractor of property maintenance
                    exceptions identified during field inspections that posed safety hazards or
                    placed the properties at risk of immediate deterioration. Also, LGY did not
                    consistently ensure correction of these issues by the contractor. This
                    occurred because LGY policies did not require LGY staff to report
                    maintenance exceptions to the contractor when identified and ensure the
                    contractor corrected these issues. Yet, VA’s potential liability increases if
                    LGY does not timely report maintenance exceptions and ensures correction.
                    Additionally, maintenance exceptions that place foreclosed properties at
                    unnecessary risk of deterioration can reduce property values and make it
                    more difficult to maximize the return on properties sold.

Maintenance         In FY 2011, LGY staff inspected approximately 3,400 foreclosed properties
Issues              as part of its oversight responsibilities. When LGY staff inspect foreclosed
Identified by
LGY Staff
                    properties, property issues identified are classified in two categories.

                    	 Maintenance Exceptions—Safety hazards, such as an unsecured pool or
                        holes in the floor, and those that place the property at risk of immediate
                        deterioration, such as failure to winterize the property or active water
                        damage  
                    	 Other Maintenance Issues—Issues identified during an inspection, such
                       as overgrown lawns and shrubs or broken windows

                    The foreclosed property management contract requires LGY staff to report
                    maintenance exceptions identified during field inspections to the contractor
                    via quarterly reports. In addition, while not part of the contractor’s
                    performance measures, LGY reports other issues identified to the contractor
                    quarterly to document these issues discovered during field inspections.

Maintenance         LGY was not timely about reporting maintenance exceptions to the
Exceptions          contractor for correction. LGY did not report 26 of 35 sampled maintenance
Not Reported
                    exceptions to the contractor when identified. The 26 maintenance exceptions
                    consisted of 25 that placed the properties at risk of immediate deterioration
                    and 1 safety hazard. The majority of these maintenance exceptions were
                    failure to winterize properties. VA generally requires the winterization of all
                    VA-owned foreclosed properties, which includes procedures such as
                    completely draining all plumbing systems and disconnecting water service.
                    Properties not winterized are at an increased risk of flooding or water
                    damage.

                    LGY reported these 26 maintenance exceptions to the property management
                    contractor in quarterly reports. As a result, the number of days before LGY
                    notified the contractor ranged from 43–118 days, with an average of 79 days.

VA Office of Inspector General                                                                   7
                                  Audit of VBA’s Foreclosed Property Management Contractor Oversight


                    Table 2 shows the number of days from the date of the inspection to the date
                    LGY sent the quarterly report to the contractor.

Table 2
                                 Number of Days From Identification to Notification

                                                                        Number of
                                 Number of Days
                                                                  Maintenance Exceptions
                       Less than 45 days                                       2
                       45–90 days                                            17
                       Greater than 90 days                                    7
                         Total                                               26
                      Source: VA OIG analysis

Policies            LGY needs to develop policies to ensure staff report maintenance exceptions
Needed              when identified. The foreclosed property management contract requires
                    property issues identified during field inspections be reported to the
                    contractor quarterly. By not requiring staff to timely report maintenance
                    exceptions, LGY creates unnecessary delays that potentially increase the risk
                    of more costly property repairs and situations where the contractor may not
                    have the opportunity to correct maintenance exceptions prior to sale. For
                    example, 13 of the 26 properties were sold prior to LGY notifying the
                    contractor of these maintenance exceptions by quarterly reports. As a result,
                    exceptions can go uncorrected, increasing VA’s potential liability for unsafe
                    and poorly maintained properties and possibly reduce the value of these
                    properties prior to sale.

Follow-Up 	         LGY did not consistently ensure its foreclosed property management
Lacking	            contractor corrected reported maintenance exceptions. For 26 of the
                    35 maintenance exceptions in our sample, we found no evidence LGY
                    followed up to ensure the contractor corrected these issues. LGY staff was
                    unable to provide evidence of follow-up with the contractor, such as
                    contractor-provided written confirmation or vendor invoices to ensure the
                    contractor corrected these issues. According to PMOU management, LGY
                    does not perform follow-up field inspections targeting properties with
                    previously reported maintenance exceptions. PMOU management stated this
                    was because of LGY’s limited resources to cover the geographical dispersion
                    of all its foreclosed properties.

                    LGY did not consistently ensure correction of maintenance exceptions
                    because LGY policies did not require LGY staff to follow up with the
                    contractor to ensure the correction of maintenance exceptions. If staff do not
                    follow up with VBA’s foreclosed property management contractor to verify
                    property maintenance exceptions are expeditiously addressed and corrected,



VA Office of Inspector General                                                                    8
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                    VA properties may take longer to sell, and it may be more difficult to
                    maximize return on sale of the properties.

                    LGY can improve its oversight of its foreclosed property inventory by
                    developing policies to ensure staff report maintenance exceptions when
                    identified and follow up with the contractor to obtain evidence that the
                    contractor has corrected maintenance exceptions. LGY cannot reasonably
                    ensure foreclosed properties do not unnecessarily deteriorate or pose
                    potential safety and other liability issues until it improves its policies.

                    Recommendation

                    3. We recommended the Under Secretary for Benefits develop policies that
                    require Loan Guaranty Service to report maintenance exceptions to its
                    foreclosed property management contractor when identified and follow up to
                    ensure correction.

Management          The Under Secretary for Benefits concurred and stated that VBA is in the
Comments            process of implementing policies that require LGY to report maintenance
                    exceptions to its foreclosed property management contractor when identified
                    and follow up to ensure correction. VBA expects implementation by the end
                    of August 2013. The Under Secretary contends that the majority of the
                    properties identified in this report did not necessitate immediate notification,
                    thus OIG overstated the potential liability associated with this finding.

OIG Response        In regards to the Under Secretary’s response to our recommendation, we
                    consider the planned action acceptable, and we will follow up on its
                    implementation. We disagree with the Under Secretary’s contention that the
                    majority of the properties were inappropriately included. In its response,
                    VBA stated that for immediate notification to be warranted, the issue must
                    present an immediate safety hazard or threat of deterioration. However,
                    VBA’s contention reflects an inconsistency with the definition of a
                    maintenance exception according to its contract with the property
                    management contractor.

                    The contract defined maintenance exceptions as safety hazards or risks of
                    immediate deterioration. All properties sampled for this finding included
                    one or more maintenance exceptions as identified by VBA staff. Therefore,
                    by contract definition, all properties included in this finding had a safety
                    hazard or risk of immediate deterioration. During our work at the PMOU,
                    we verified each error with appropriate staff.




VA Office of Inspector General                                                                    9
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


Appendix A          Background

VA Home Loan        Since the inception of the VA Home Loan Program in 1944, an important
Program             objective has been to assist eligible veterans to transition from military to
                    civilian life. The program makes home ownership more affordable for
                    veterans, service members, and some surviving spouses. In addition, the
                    program protects lenders from loss if the borrower fails to repay the loan.

                    VA guarantees loans to buy, build, improve, or refinance a home. Specific
                    benefits generally include negotiable interest rates, exemption from the
                    funding fees (due to receipt of disability compensation), lower closing costs,
                    no mortgage insurance premiums, no down payments, and assistance to
                    borrowers in default due to temporary financial difficulty. According to VA,
                    71 percent more homes were purchased with VA guaranteed loans in
                    FY 2012 than in FY 2007. VA guaranteed approximately 540,000 mortgages
                    in FY 2012 and reported 1.7 million active VA guaranteed home loans,
                    including refinanced loans, with a total value of approximately $284 billion
                    in October 2012.

Foreclosed          The loan servicer may initiate termination proceedings when veterans cannot
Property            meet their mortgage obligations on VA guaranteed home loans. The loan
Management          servicer may acquire the property and has the option of conveying the
                    property to VA. Once conveyed, VA assigns the property to a contractor for
                    management and sale.

                    Prior to 2003, LGY staff directly managed VA-acquired foreclosed
                    properties. Since 2003, LGY has contracted with three companies to manage
                    its foreclosed property inventory—Ocwen from 2003 to 2008 and
                    Countrywide Home Loans (who changed their name to Bank of America
                    Home Loan Servicing) from 2008 until September 2012. Vendor Resource
                    Management fully assumed management of VA’s foreclosed property
                    inventory in September 2012.

                    The contractor’s responsibilities include securing foreclosed properties;
                    maintaining properties in a clean, sound, and sanitary condition; and
                    ensuring the return on sale is maximized while minimizing time on the
                    market. VA pays a monthly management fee, ranging from $20 to $200, to
                    the contractor for each property in the inventory. According to VBA, in
                    FY 2012, Bank of America received approximately $83 million in fees and
                    reimbursements for managing VA-owned foreclosed properties. VA
                    reimburses the contractor for allowable expenses after sale of the property.

                    According to VBA, VA acquired approximately 13,500 properties for about
                    $1.4 billion and sold approximately 10,400 properties for about $1.1 billion
                    in FY 2012. VA began FY 2013 with an inventory of approximately
                    9,500 properties, valued at about $953 million.


VA Office of Inspector General                                                                  10
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


Organizational      VBA’s LGY administers the VA Home Loan Program. LGY provides
Structure           oversight of the property management contractor from the following two
                    locations.

                    	 Property Management Central Office in Washington, DC—Provides
                       overall contract management and policy dissemination.
                    	 Property Management Oversight Unit in Nashville, TN—Assesses
                       contractor compliance with contract provisions and reviews and certifies
                       payments made to the foreclosed property management contractor. The
                       PMOU has two primary functions.
                        o	 Invoice Reviews—Reviews the contractor’s expense claims
                           associated with foreclosed property management after the sale of a
                           foreclosed property to ensure the appropriateness of property
                           maintenance and repair expenditures claimed by the contractor for
                           reimbursement.
                        o	 Field Inspections—Ensures sampled foreclosed properties managed
                           by the contractor are secured, maintained, and free from safety
                           hazards.

Prior Audits        In 2012, the VA OIG issued the Audit of Liquidation Appraisal Oversight
and Reviews         Cleveland and Phoenix Regional Loan Centers (Report No. 10-04045-124,
                    October 4, 2012), which concluded LGY needed to strengthen oversight of
                    liquidation appraisals to help ensure VA pays fair and reasonable prices
                    when acquiring real estate properties. Additionally, the OIG concluded LGY
                    Service must take further actions to strengthen risk management.

                    In 2009, the VA OIG issued the Audit of Veterans Benefits Administration’s
                    Loan Guaranty Program Risk Management (Report No. 08-01987-118,
                    April 28, 2009), which concluded VBA lacked reasonable assurance LGY
                    appropriately managed risks. Additionally, the OIG concluded LGY was not
                    monitoring and adjusting a control implemented to mitigate the risk of losses
                    on the sale of foreclosed properties.

                    In 2007, the Government Accountability Office issued Actions Needed to
                    Strengthen VA’s Foreclosed Property Management Contract Oversight
                    (GAO-08-60, November 15, 2007), which concluded 32–46 percent of
                    properties inspected did not meet overall inspection standards. They further
                    concluded VBA’s supporting systems did not include real-time property
                    maintenance and repair information, including expense data.




VA Office of Inspector General                                                                  11
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


Appendix B          Scope and Methodology

                    We conducted our audit work from August 2012 through May 2013. The
                    audit focused on VBA’s oversight of contractor responsibilities for managing
                    VA-acquired foreclosed properties. Specifically, we reviewed VBA controls
                    over maintenance exceptions identified during field inspections,
                    reimbursement of contractor expenses, and management fees claimed for
                    properties assigned to the PMOU from October 1, 2010, through
                    March 31, 2012.

                    To assess VBA’s oversight of contractor responsibilities for managing
                    VA-acquired foreclosed properties, we reviewed laws, regulations, and
                    policies pertaining to the acquisition and management of VA-acquired
                    foreclosed properties. In addition, we reviewed VA’s contract during our
                    review period for the acquisition and management of VA-acquired
                    foreclosed properties. We also conducted site visits and interviewed
                    management and staff at VBA’s Property Management Central Office and
                    PMOU.

                    We used property records established in the Centralized Property Tracking
                    System and the contractor’s property management system to review
                    information associated with a sample of properties. We selected 132 unique
                    properties for review from a population of 19,095 properties assigned to the
                    PMOU from October 1, 2010, through March 31, 2012. We examined
                    890 claimed expenses LGY approved for payment related to 93 property
                    invoices.

Fraud               In order to obtain reasonable assurance of detecting fraud that may have
Detection           occurred within the context of our objectives, we considered fraud risk
                    factors such as management controls, the nature of operations, and a VA
                    OIG Hotline complaint when developing our audit steps. We interviewed
                    LGY management concerning LGY procedures to identify and report
                    fraudulent activity. We also interviewed VA OIG Office of Investigations
                    staff to determine if criminal investigations related to the management of VA
                    foreclosed properties had been recently undertaken. In addition, we
                    reviewed a sample of expense reimbursements processed by LGY to
                    determine the effectiveness of controls to identify potentially fraudulent
                    reimbursements made by LGY.

Data Reliability    We used computer-generated data from VBA’s Centralized Property
                    Tracking System and Oracle Discoverer for the period of October 1, 2010,
                    through March 31, 2012, to support the scope of our audit. To test the
                    reliability of data, we compared key elements from our sample selection
                    (such as amount claimed for payment) with Centralized Property Tracking
                    System information and summary expense information in the contractor’s
                    information system. We did not identify any inconsistencies. We


VA Office of Inspector General                                                                  12
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                    determined the computer-generated data to be sufficiently reliable to meet
                    the audit objectives and support our recommendations.

Government          We conducted this performance audit in accordance with generally accepted
Standards           government auditing standards. These standards require that we plan and
                    perform the audit to obtain sufficient, appropriate evidence to provide a
                    reasonable basis for our findings and conclusions based on our audit
                    objective. We believe the evidence obtained provides a reasonable basis for
                    our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                  13
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


Appendix C          Contractor Performance

                    According to VBA data, as shown in Table 3, the foreclosed property
                    management contractor’s performance was between the performance bonus
                    and penalty range during the period of our audit scope.

 Table 3                              Bank of America Quarterly Performance
                                         (October 1, 2010–March 31, 2012)
                                              Contractual            Contractual          Actual
                       Performance           Performance            Performance          Average
                          Metric               Incentive             Disincentive       Quarterly
                                             (Bonus Paid)         (Penalty Charged)    Performance
                    Return on Sale          88% (or higher)         72% (or lower)        80.6%
                    Maintenance             95% (or higher)         80% (or lower)        86.7%
                    Aged Inventory          7.4% (or lower)         21% (or higher)       12.3%
                    Property Access         95% (or higher)         80% (or lower)        87.0%
                    Average Days in
                                           106 days (or less)     175 days (or more)    141 days
                    Inventory
                    Source: VA OIG analysis using data provided by LGY

                    A description of Bank of America’s five quarterly performance metrics
                    follows.

                    	 Return on Sale—Average net sales proceeds for all properties sold in a
                       quarter divided by average initial listing price set by the property
                       management contractor averaged over all properties sold in the quarter
                    	 Maintenance—Number of properties with no maintenance exceptions
                       (safety hazards or risk of immediate deterioration of property) divided by
                       number of properties field inspected
                    	 Aged Inventory—Percentage of properties at the end of the quarter
                       which have been in inventory for nine or more months from the date of
                       assignment to the contractor
                    	 Property Access—Percentage of properties VA gains access to using the
                       lock box code provided by the contractor
                    	 Average Days in Inventory—Total number of days each property was
                       in inventory through the end of a quarter divided by total number of
                       properties in inventory




VA Office of Inspector General                                                                    14
                                  Audit of VBA’s Foreclosed Property Management Contractor Oversight


Appendix D          Statistical Sampling Methodology

                    To evaluate VBA’s oversight over its foreclosed property management
                    contractor, we selected a statistical sample of properties assigned to the
                    PMOU from October 1, 2010, through March 31, 2012. We excluded
                    properties without at least one processed invoice, one field inspection
                    maintenance exception (safety hazards and risks of immediate deterioration),
                    or one monthly management fee from our sample.

Population          The population consisted of 19,095 properties assigned to the PMOU from
                    October 1, 2010, through March 31, 2012. The population included
                    11,235 properties with invoices processed, 536 properties with maintenance
                    exceptions, and 19,081 properties with monthly management fees.

Sampling            We used a stratified sample to select properties to review. We segregated
Design              our population into 7 mutually exclusive strata and selected 132 unique
                    properties for review from the 5 strata containing 1 or more properties. We
                    chose this approach to allow us to make objective inferences about the whole
                    population. Table 4 shows the population and sample size for each stratum.

Table 4                  Population and Sample Size of Foreclosed Properties by Stratum
                                       Stratum                        Population          Sample Size
                     Properties with processed expense invoices,
                      field inspection maintenance exceptions, and         350                   30
                      monthly management fees
                     Properties with processed expense invoices
                      and field inspection maintenance exceptions            0                    0
                      but no monthly management fees
                     Properties with field inspection maintenance
                      exceptions and monthly management fees               186                   30
                      but no processed expense invoices
                     Properties with field inspection maintenance
                      exceptions but no processed expense                    0                    0
                      invoices or monthly management fees
                     Properties with processed expense invoices
                      and monthly management fees but no field          10,871                   31
                      inspection maintenance exceptions
                     Properties with processed expense invoices
                      but no field inspection maintenance                   14                   10
                      exceptions or monthly management fees
                     Properties with monthly management fees but
                      no processed expense invoices or field             7,674                   31
                      inspection maintenance exceptions
                      Total                                             19,095                 132
                       Source: VA OIG sample selection performed in consultation with the Office of Audits
                       and Evaluations statistician

VA Office of Inspector General                                                                               15
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                    Of the 132 unique properties, we reviewed 71 properties with processed
                    invoices. For these 71 properties, we reviewed 93 expense reimbursement
                    claims comprised of 890 individual expenses.         We also reviewed
                    33 properties with maintenance exceptions and 122 properties with monthly
                    management fees. Properties reviewed included one or more of the
                    following:

                       Field inspections with one or more maintenance exception
                       Processed expense invoices
                       Paid monthly management fees 




VA Office of Inspector General                                                                  16
                                  Audit of VBA’s Foreclosed Property Management Contractor Oversight


Appendix E           Under Secretary for Benefits Comments


               Department of
               Veterans Affairs
                                                       Memorandum
        Date:	   August 7, 2013

       From:	    Under Secretary for Benefits (20)

        Subj:	   OIG Final Report—Audit of Foreclosed Property Management
                 Contractor Oversight [Project No. 2012-01899-R9-0117]—VAIQ
                 7362467
         To:     Assistant Inspector General for Audits and Evaluations (52)

                  1.	 Attached is VBA’s revised response to the OIG’s final report:
                      Audit of Foreclosed Property Management Contractor Oversight.
                      Based on the information in the final report, VBA continues to
                      have several significant concerns with the report as written, and
                      does not agree with two of the conclusions reached by OIG:

                         	 VBA disagrees with OIG’s assertion that the contract
                            payments reviewed were unsupported and therefore,
                            improper.
                         	 Secondly, VBA does not agree with the number of
                            maintenance exceptions OIG identified as requiring
                            immediate reporting to the property management
                            contractor.

                     We have held a number of meetings aimed at resolving areas of
                     disagreement, but have been unable to reach a consensus.

                  2.	 VBA disagrees with OIG’s contention on page 2, under Finding 1
                      of the Results and Recommendations section: “Loan Guaranty
                      Service (LGY) made improper payments for 528 (59 percent) of
                      890 sampled expenses not supported by vendor invoices.” VBA
                      contends that the payments were proper and supported by
                      sufficient documentation. Please refer to the “Improper
                      Payments” section in the attached technical comments for VBA’s
                      rationale.




VA Office of Inspector General                                                                   17
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight




                 3.	 VBA has an additional concern with OIG’s assertion on page 5,
                     under Finding 2 of the Maintenance Exceptions Not Reported
                     When Identified section. OIG states, “Twenty-six of 35
                     maintenance exceptions reviewed were not reported to the
                     contractor when identified by LGY.” VBA agrees with OIG’s
                     recommendation to develop policies that require immediate
                     reporting of maintenance exceptions when they pose safety
                     hazards or place the properties at risk of immediate deterioration.
                     However, VBA does not agree with the number noted in the report
                     as requiring immediate reporting because they did not pose a
                     safety hazard or risk of property deterioration. Only four of the
                     twenty six maintenance exceptions cited in the report required
                     immediate notification to the property management contractor.
                     Please refer to the “Maintenance Exceptions” section in the
                     attached technical comments for VBA’s rationale.

                 4.	 As such, VBA can only concur in part with OIG’s draft report.
                     We concur with recommendation 1, to ensure that the property
                     management contractor provides vendor invoices to substantiate
                     expenses prior to reimbursement, and with recommendation 3, to
                     develop policies that require reporting of maintenance exceptions
                     to the property management contractor when identified and follow
                     up to ensure correction. However, we do not concur with
                     recommendation 2, which states that VBA should determine the
                     cost effectiveness of initiating recovery of improper payments
                     identified in the report.

                 5.	 Questions may be referred to Lori Washington, Program Analyst,
                     at 461-1445.




                      Attachment




VA Office of Inspector General                                                                  18
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


                     Veterans Benefits Administration (VBA)

                         Comments on OIG Draft Report 

         Audit of Foreclosed Property Management Contractor Oversight 

The Veterans Benefits Administration provides the following technical comments:

VBA disagrees with two of the conclusions related to improper payments and maintenance
exceptions asserted by OIG in this report.

Improper Payments

The following comments pertain to the property management contract in place during the time
period reviewed by OIG for this report, from October 2010 to March 2012. A new Real Estate
Owned and Portfolio Servicing Contract (RPSC) was awarded in April 2012, which contains a
flat fee for property preservation and no longer requires invoices for these activities.
Additionally, for reimbursable expenses, the current RPSC service provider obtains vendor
invoices from the entities described in the contract. As a result, VBA contends not only that the
prior contract payments reviewed by OIG were proper, but that the contention of improper
payments in their report does not apply to the current RPSC.

Payments for property management contractor expenses involved multiple transaction steps
before funds were reimbursed to the property management contractor. However, OIG focused on
one particular step in this process and overlooked other key steps (and related oversight processes
and procedures) during this audit, resulting in an inaccurate representation of VBA’s oversight of
the property management contractor.

VBA’s property management contractor (PMC) required all sub-contractors to provide invoices,
cancelled checks, and W-9s for any assigned property preservation activities. These documents
were uploaded into the PMC’s invoice management system, which was a third-party system
utilized widely by the Real Estate Owned (REO) industry to process invoice payments. The
invoice management system employed front-end controls to ensure invoice charges were pre-
analyzed for automated business rule and financial guideline compliance. The system’s
automated controls included screening of all line item invoice expenses against VBA allowable
expenses and dollar threshold limits. Invoice expenses also required review by a PMC technician
prior to payment. If an invoice failed any of the business rules, it was automatically forwarded
for review by the PMC’s management, and additional supporting documentation was required
prior to approval. VBA’s understanding is that OIG did not review the PMC’s oversight
processes, procedures, and invoice management system during this audit.

However, VBA did not have full access to the PMC’s invoice management system, because
partitioning VBA’s invoices out from all of their other client’s invoices would have come with
significant cost and possible contract modifications, as well as potential workload issues in the
timely processing of REO invoices. It was not possible for the PMC to limit what accounts users
had access to, and allowing VBA carte-blanche access to all system invoices would have created a
security issue for both VBA and the contractor. Since VBA had thoroughly reviewed the PMC’s
invoice processes, procedures, internal controls, and related systems, VBA had assurance that
their handling of sub-contractor invoices was sound. The ‘proof of payment’ screen included

VA Office of Inspector General                                                                  19
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


amounts paid to sub-contractors, the types of work that were completed, payment certification
reviews listed by person, and the dates the payments were certified. If any additional
management review of an invoice was required, it also listed the person that performed the review
and the date the review was completed. Therefore, VBA chose to use the ‘proof of payment’
screen from the PMC’s invoice management system as sufficient supporting documentation for
reimbursable REO expenses.

The contract stated that all required expenses submitted for reimbursement be substantiated by
complete imaged (electronic) documentation, such as bids, work orders, and invoices, in support
of allowable expenses. The PMC submitted their expenses to VBA for reimbursement and
substantiated them with additional supporting documentation, which included the ‘proof of
payment’ screen from their invoice management system. The ‘proof of payment’ screen is what
OIG terms “expense summaries” in the report. Although OIG asserts the ‘proof of payment’
screens were insufficient evidence to verify that the expenses claimed were accurate, allowable,
and legitimate, there is no indication in the report that the OIG performed a review of the PMC’s
invoice management system and the related processes that provide information to those screens.

Once the PMC submitted their expenses to VBA, Property Management Oversight Unit (PMOU)
staff reviewed them prior to reimbursement. New PMOU staff undergo extensive on-the-job
training and shadowing of other experienced PMOU staff. Upon being considered fully trained in
the handling of REO invoices, PMOU staff work is closely monitored to ensure adherence to
PMOU standard operating procedures. When PMOU staff completed a review of submitted
expenses by the PMC, they had a peer perform a secondary review prior to reimbursement.
During these reviews, contractor systems were checked for supporting documentation such as
‘proof of payment’ screens, pictures of properties, appraisals, and HUD-1 documents. If a line
item on an invoice was not allowable, did not have the required supporting documentation, or was
not considered reasonable or customary, that line item was rejected and required additional
supporting documentation prior to reimbursement. For example, if an invoice was submitted for
grass cutting in Arizona, PMOU staff would check the appropriate system to view pictures of the
property. If upon review of the pictures, it was determined that the property had a gravel lawn,
then the grass cutting expenses would have been rejected and would not have been reimbursed to
the property management contractor.

It is important to note that since 2008, OIG’s own contracted financial statement auditors
(Deloitte & Touche before 2010 and Clifton Gunderson after 2010) had no objections with the
level of supporting documentation described above. The auditors were provided a detailed walk-
through of all PMC and PMOU invoice processes and associated systems, including acceptance
of the ‘proof of payment’ screen from the PMC’s invoice management system. Additionally,
Deloitte and Touche verified the accuracy of the submitted invoice information listed in the
‘proof of payment’ screen by sending confirmation letters to the PMC’s sub-contractors, and
VBA received no findings regarding insufficient documentation to process REO invoices.

OIG cites OMB circular A-123 that states, “when an agency is unable to discern whether a
payment was proper due to a lack of or insufficient documentation, the payment is considered an
improper payment.” OIG’s report goes on to state that the expense summaries (i.e., ‘proof of
payment’ screens) did not provide sufficient evidence to verify the expenses claimed were proper.
The referenced OMB circular does not specify which specific, or what level/degree of

VA Office of Inspector General                                                                  20
                                  Audit of VBA’s Foreclosed Property Management Contractor Oversight


documentation is considered sufficient. OIG provides no support for their independent
redefinition of OMB’s guidance, and VBA contends that this is not appropriate. VBA disagrees
with OIG’s interpretation of what documentation OMB considers sufficient. VBA contends that
the PMC’s processes and internal controls regarding their sub-contracted activities, the validity of
the ‘proof of payment’ screens, and PMOU’s standard operating procedures and subject matter
expertise in handling REO invoices, all ensured payments made were proper. VBA again notes
that in past OIG financial statement audits, no findings related to the sufficiency of the PMC
invoices were rendered.

Maintenance Exceptions

With regard to PMC notification of maintenance exceptions and maintenance issues on REO
properties, VBA makes the distinction between critical issues and those which require correction,
but do not necessitate immediate notification to the PMC. For immediate notification to be
warranted, the maintenance exception or maintenance issue must present an immediate safety
hazard or threat of deterioration or damage to the structure or adjoining properties. If a
maintenance exception or maintenance issue does not meet this threshold, VBA considers it a
contract compliance issue, and it is reported quarterly to the contractor as part of the performance
report. OIG noted that 26 of 35 reviewed maintenance exceptions were not reported to the PMC
immediately upon identification. VBA contends that the majority of the identified properties with
maintenance exceptions and issues did not necessitate immediate notification to the PMC. VBA
believes the figures cited by OIG in the report provide an inaccurate impression of the number of
maintenance exceptions and maintenance issues that warranted immediate notification, and thus
OIG overstates the potential liability involved with this finding.

The following list explains the rationale as to why 22 of the 26 maintenance exceptions and
maintenance issues noted by OIG did not warrant immediate notification to the PMC:

	   9 properties were under contract and it is typical REO practice to have homes de-winterized
     for a brief period of time in order to allow the purchaser to have mechanical systems
     inspected;
	   5 properties that were inspected during the summer months and were located in the southern
     section of the United States, which the urgency to report findings due to likelihood of freeze
     damage was not warranted;
	   3 properties were in eviction status, i.e., the contractor did not have full custody of the
     property at the time of inspection and could not winterize properties until eviction was
     complete;
	   2 properties had electricity on with heat at the time of inspection, which means the
     likelihood of pipes freezing is minimal and therefore did not require immediate notification;
	   1 property had been winterized the day of the inspection;
	   1 property had an unsecured swimming pool, which the PMC was aware of since bids to
     secure the pool were being processed at time of the property inspection; and
	   1 property had a roof leak, which the PMC was aware of since bids for repairs had been
     issued and the property subsequently went under contract with no repairs.

 VA Office of Inspector General                                                                  21
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


The following comments are submitted in response to the recommendations in the OIG
draft report:

Recommendation 1: We recommended the Under Secretary for Benefits ensure the Veterans
Benefits Administration’s foreclosed property management contractor provides vendor invoices
to substantiate expenses claimed by the contractor prior to reimbursement by Loan Guaranty
Service.

VBA Response: Concur. The current Real Estate Owned and Portfolio Servicing Contract
(RPSC), which started in April 2012, contains a flat fee for property preservation, no longer
requiring invoices for these activities. Additionally, for reimbursable expenses, the current RPSC
service provider obtains vendor invoices from the entities described in the contract. VBA
requests closure of this recommendation.

Recommendation 2: We recommended the Under Secretary for Benefits determine whether it is
cost effective to initiate recovery of improper payments identified in our audit.

VBA Response: Non-concur. Office of Management and Budget Memorandum M-11-16,
Issuance of Revised Parts I and II to Appendix C, Circular A-123, states that when an agency is
unable to discern whether a payment was proper due to a lack of or insufficient documentation,
the payment is considered an improper payment. The referenced OMB circular does not specify
what specific or level/degree of documentation is considered sufficient. OIG provides no support
for its independent redefinition of OMB’s guidance, and VBA contends that this is not
appropriate. VBA disagrees with OIG’s interpretation of what documentation OMB considers
sufficient. Additionally, VBA contends that the PMC’s processes and internal controls in regard
to its sub-contracted activities, the validity of the ‘proof of payment’ screens, and PMOU’s
standard operating procedures and subject matter expertise in handling REO invoices all ensured
payments made were proper. VBA also notes that on a past OIG financial statement audit, the
sufficiency of the PMC invoices was tested and no findings related to their adequacy were
rendered. As a result, VBA stands by its determination that payments made were proper and does
not concur with determining the cost effectiveness of initiating recovery of these payments.

Recommendation 3: We recommended the Under Secretary for Benefits develop policies that
require Loan Guaranty Service to report maintenance exceptions to its foreclosed property
management contractor when identified and follow up to ensure correction.

VBA Response: Concur. VBA is in the process of implementing policies that require LGY to
report maintenance exceptions to its foreclosed property management contractor when identified
and follow up to ensure correction. VBA expects this will be fully implemented by the end of
August 2013.

Target Completion Date: August 31, 2013




VA Office of Inspector General                                                                  22
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	               For more information about this report, please
                                                  contact the Office of Inspector General at
                                                  (202) 461-4720.

                      Acknowledgments             Timothy J. Crowe, Director
                                                  Jessica Blake
                                                  Dennis Capps
                                                  Matt Hammond
                                                  Kristopher Kasey
                                                  Anne Mullett
                                                  Bryan Shaw
                                                  Craig Ward




VA Office of Inspector General                                                                  23
                                 Audit of VBA’s Foreclosed Property Management Contractor Oversight


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                  24
